C@OCKLE

Le g al Brie fg E-Mail Address:

contact@cocklelegalbriefs.com,

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-205

CITY OF FLINT, et al.,
Petitioners,
v.
SHARI GUERTIN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 1875 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary .
State of Nebraska . LG 4

My Commission Expires Nov 24, 2020
Notary Public Affiant 39264

 
